No. 20-297
IN THE

Supreme Court of the United States
_________
TRANS UNION LLC,
Petitioner,
v.
SERGIO L. RAMIREZ,
Respondent.
CERTIFICATE OF SERVICE
I, Adam G. Unikowsky, hereby certify that I am a member of the Bar of this
Court, and that I have this 8th day of February 2021, caused three copies of the Brief of
The Retail Litigation Center, Inc. as Amicus Curiae in Support of Petitioner to be
served via overnight mail and an electronic version of the document to be transmitted
via the Court’s electronic filing system to:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Samuel Issacharoff
40 Washington Square South
New York, NY 10012
(212) 998-6580
si13@nyu.edu
Counsel for Sergio Ramirez

Counsel for TransUnion LLC

/s/ Adam G. Unikowsky
Adam G. Unikowsky

